No.
IN THE
SUPREME COURT OF THE UNITED STATES
Andres F. Cabezas,
Petitioner,
v.
Richard Corcoran as the
Florida Commissioner of Education,
Respondent.
PROOF OF SERVICE
I, Andres Cabezas, do swear and declare that on this date, Flay
i9., 2021, as required by Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Education Practices Commission at the Turlington Building, Suite,
316, 325 West Gaines Street, Tallahassee, Florida 32399-0400.
United States Supreme Court, 1 First Street, N.E, Washington, D.C.
20543.
I declare under penalty of perjury that the foregoing is true and
correct,
Executed on May j_V 2021,
RECEIVED
MAY 2 5 2021

